         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Opportunities for Energy Savings at
Department of Energy Facilities




DOE/IG-0869                           August 2012
                                   Department of Energy
                                       Washington, DC 20585

                                          August 31, 2012

MEMORANDUM FOR THE SECRETARY



FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Opportunities for Energy Savings
                          at Department of Energy Facilities"

INTRODUCTION AND OBJECTIVE

Promoting energy efficiency is one of the Department of Energy's top priorities. In the Federal
sector, the Department's Federal Energy Management Program and Sustainability Performance
Office provide leadership for the implementation of key energy initiatives, including the Energy
Independence and Security Act of 2007 (EISA 2007) and the Energy Policy Act of 2005 (EPAct
2005). These broad policy initiatives contain significant provisions on reducing energy
consumption across the Federal enterprise.

EISA 2007, for example, requires evaluations of "covered facilities," those designated by each
agency that, in aggregate, account for at least 75 percent of total facility energy use at the site or
location, every 4 years. Facility evaluations include assessments of existing buildings to
determine whether systems are operating as intended. Such assessments often identify low- and
no-cost opportunities for energy savings by ensuring that mechanical, heating and lighting
systems perform optimally, thereby, reducing energy consumption.

Under EPAct 2005 all Federal buildings are required to have electricity metering in place, where
cost-effective, by October 2012. Metering provides information that can be analyzed and used
through a variety of means to optimize equipment performance and allocate utility costs on an
"actual use" basis to incentivize energy conservation.

At its 47 major sites, the Department's energy costs for buildings subject to goal reporting totaled
about $277 million in Fiscal Year 2010. Because of the importance of reducing energy
consumption, we initiated this audit to determine whether the Department had effectively
identified and implemented energy-saving opportunities through facility evaluations and
electricity metering.
RESULTS OF AUDIT

The Department had not always pursued readily available, low-cost energy-saving opportunities.
If more aggressive energy conservation measures had been taken, the Department could have
saved about $6.6 million annually, of the $42 million in available energy-saving opportunities as
defined by EISA 2007 requirements. Specifically:

   •   Three of the five sites we reviewed (Brookhaven National Laboratory, Oak Ridge
       National Laboratory and Los Alamos National Laboratory) had not always identified or
                                                 2


       implemented low- and no-cost, quick payback energy conservation measures discovered
       during facility evaluations. For example, the Oak Ridge National Laboratory's 2009
       facility evaluation identified conservation measures that could result in a payback within
       2 months and an estimated annual savings of about $77,000 for projects including
       utilizing variable speed drives on supply and exhaust air fans, installing temperature
       redistribution fans and repairing a steam trap. These measures, however, had not been
       implemented; and,

   •   Two of the five sites (Oak Ridge National Laboratory and the Y-12 National Security
       Complex) had not fully evaluated existing buildings to determine, among other things,
       whether building systems such as heating and lighting were operating as intended, despite
       specifically identified savings and recommendations to do so. For example, Oak Ridge
       National Laboratory had not fully implemented recommendations to optimize systems in
       10 of 19 buildings (about 53 percent) assessed by a third-party evaluator during 2009.

Further, we identified opportunities to improve energy conservation through the use of electricity
metering data at two sites visited (Y-12 and Los Alamos). While Y-12 energy managers
identified a number of meters that were not working properly, they overlooked other meters that
were not functional. Additionally, Los Alamos had a significant number of electricity meters
installed and used the metering data to generate mock electricity bills to illustrate quarterly
energy consumption. However, it had not incentivized conservation by actually charging users
based on their energy consumption.

Site officials told us that a number of factors contributed to instances of ineffective evaluations
and electricity metering practices. These included a lack of prioritization in implementing low-
and no-cost, quick payback measures; insufficient resources to complete numerous required
evaluations; billing practices that did not promote and encourage efficient energy use; and
difficulties in revising accounting systems to support billing users based on energy consumption.

While our review identified opportunities for energy savings, we noted that sites had, in a
number of instances, evaluated existing buildings and used metering data to reduce energy
consumption and costs. For example, Oak Ridge National Laboratory had evaluated its
Spallation Neutron Source campus and estimated that it could save approximately $350,000
annually by investing about $250,000 for projects it had completed. Similarly, certain sites used
electricity metering data to identify energy conservation opportunities.

The Department has publicly advocated for energy conservation in U.S. businesses and private
residences, as well as within its own facilities. Effectively evaluating systems in existing
buildings and using electricity metering data could significantly advance energy conservation
and decrease energy costs. We conservatively estimated that the Department could save
approximately $6.6 million annually by applying these principles (See Appendix 1). We made
several recommendations designed to assist the Department in this effort.

This report is part of a series of energy conservation-related reports issued by the Office of
Inspector General. In our report on The Department of Energy's Energy Conservation Efforts
(OAS-L-11-02, February 2011), we noted that the Department's approach was not sufficient to
                                               3


meet the EISA 2007 energy conservation requirement to reduce consumption by 30 percent by
Fiscal Year 2015. In our reports on the Department of Energy's Opportunity for Energy Savings
Through Improved Management of Facility Lighting (DOE/IG-0835, June 2010) and the
Department of Energy's Opportunity for Energy Savings Through the Use of Setbacks in its
Facilities (DOE/IG-0817, July 2009), we found the Department could have significantly reduced
energy consumption by updating lighting and utilizing temperature setbacks. Another report on
Department of Energy Efforts to Manage Information Technology Resources in an Energy-
Efficient and Environmentally Responsible Manner (OAS-RA-09-03, May 2009) found the
Department had not always taken advantage of energy efficiency opportunities related to its
information technology resources.

MANAGEMENT REACTION

Management concurred with our recommendations and provided actions that will be taken to
address issues identified in our report. The National Nuclear Security Administration
acknowledged the energy and cost-saving opportunities that remain at its sites. In separate
comments, the Office of the Under Secretary of Energy and the Office of Science indicated that
sites would continue evaluating buildings on a 4-year cycle and implementing best practices
pertaining to electricity billing, where economically viable.

Management's comments are included in Appendix 3.

Attachment

cc:    Deputy Secretary
       Associate Deputy Secretary
       Acting Under Secretary of Energy
       Under Secretary for Nuclear Security
       Director, Office of Science
       Chief of Staff
REPORT ON OPPORTUNITIES FOR ENERGY SAVINGS AT
DEPARTMENT OF ENERGY FACILITIES

TABLE OF
CONTENTS


Opportunities to Reduce Energy Consumption

Details of Finding ......................................................................................................................1

Recommendations ...................................................................................................................... 7

Comments .................................................................................................................................. 8

Appendices

1. Objective, Scope and Methodology ...................................................................................... 9

2. Prior Reports ......................................................................................................................... 11

3. Management Comments ....................................................................................................... 12
OPPORTUNITIES FOR ENERGY SAVINGS AT DEPARTMENT OF
ENERGY FACILITIES
Opportunities to   Our review of facility evaluations and electricity metering
Reduce Energy      at five of the Department of Energy's (Department) sites revealed
Consumption        opportunities to conserve energy and reduce costs. Facility
                   evaluations are one of many opportunities to identify low- and no-
                   cost, quick payback energy conservation projects that can generate
                   continuous savings that may be applied to other facility
                   improvements. Facility evaluations, among other things, assess
                   whether building systems are operating as intended or needed.
                   This process can identify deficiencies that, if not addressed, could
                   cause costly equipment failure and unnecessary energy usage.
                   These evaluations provide an opportunity to conserve resources by
                   identifying low- or no-cost changes or improvements that can be
                   made without capital upgrades. We also noted that sites were not
                   always using electricity metering effectively. While metering
                   alone does not save energy or reduce costs, metering data can be
                   compiled and analyzed to develop conservation strategies to better
                   manage scarce energy resources.

                                           Facility Evaluations

                   Sites had not always taken advantage of opportunities to decrease
                   energy consumption and reduce costs through facility evaluations.
                   Specifically:

                        •   Three of the five sites reviewed had not always identified
                            or implemented low- and no-cost, quick payback energy
                            conservation measures through facility evaluations. In
                            particular, Brookhaven National Laboratory's
                            (Brookhaven) facility evaluations, for the most part, did
                            not identify low- and no-cost, quick payback energy
                            conservation measures. Instead, Brookhaven's facility
                            evaluations mostly identified capital-intensive energy
                            conservation measures. The site was working to improve
                            facility evaluation processes and acknowledged that
                            significant, cost-effective energy-saving opportunities
                            existed from repairing and adjusting building control
                            systems at the site. Further, while Oak Ridge National
                            Laboratory (ORNL) and Los Alamos National
                            Laboratory (Los Alamos) had taken action to identify
                            low-cost and no-cost opportunities to conserve energy,
                            the sites had not always implemented such measures.




Page 1                                                              Details of Finding
                 Examples of measures with low- or no-cost and a
                 payback period of 6 months or less that were not
                 implemented are detailed in the following chart:

                 Quick Payback Energy Conservation Measures
                       Energy Conservation       Estimated    Estimated
         Evaluation         Measures              Annual        Cost to
                        Not Implemented           Savings     Implement

                      Variable Speed Drives on
                      Supply and Exhaust Air      $52,868        $7,000
         2009 Oak               Fans
           Ridge
          National          Temperature
                                                  $14,670        $1,400
         Laboratory      Redistribution Fans

                         Steam Trap Repair         $9,252        $1,060

          2011 Los    Building System Controls    $53,728       $10,000
           Alamos
          National       Maintenance and
         Laboratory                                $4,155        $2,000
                         Electronics Usage


             •   Two of the five sites had not fully evaluated and/or
                 implemented actions to ensure existing building systems
                 were operating as intended. For example, ORNL had not
                 fully implemented 10 site evaluation recommendations
                 made in 2009 to optimize building systems. Five of the
                 10 recommendations were made because third-party
                 evaluators determined that facility managers had not
                 implemented temperature setbacks for heating,
                 ventilation and air-conditioning during periods when
                 buildings were not occupied. Setbacks were still not in
                 place in the buildings as of January 2012. According to
                 the 2009 evaluation, implementing setbacks in these five
                 facilities could have saved the site around $227,000
                 annually with no upfront investment. Further, despite
                 Federal requirements, site officials at Y-12 National
                 Security Complex (Y-12) informed us that its facility
                 evaluations had not included an assessment of whether
                 existing building systems were operating as intended.
                 We noted that a Federal Energy Management Program
                 study highlighted the cost-saving opportunities for Y-12
                 from incorporating this practice into facility assessment
                 efforts.


Page 2                                                 Details of Finding
         Similarly, in our report The Department of Energy’s Opportunity
         for Energy Savings Through the Use of Setbacks in its Facilities
         (DOE/IG-0817, July 2009), we noted that facilities had not always
         used or failed to maintain heating, ventilation and air conditioning
         setback systems and equipment. We estimated that the Department
         could save an estimated $11.5 million in annual utility costs by
         using setbacks.

         In contrast, we noted positive examples of sites' efforts to evaluate
         existing building systems. For example:

              •   ORNL completed a project to assess building systems at
                  its Spallation Neutron Source campus. A site engineer
                  estimated that the actions taken could save the site around
                  $350,000 annually with an upfront cost of about
                  $250,000. Implementation was completed in September
                  2011.

              •   Los Alamos developed plans to evaluate existing building
                  systems and opportunities for improvement in five
                  facilities. One building was evaluated during Fiscal Year
                  2011.

              •   Sandia National Laboratory (Sandia) identified and
                  implemented energy-saving opportunities by making
                  improvements discovered during its facility evaluations
                  required under EISA 2007. Site personnel used
                  standardized checklists to analyze building systems and
                  controls and, when possible, addressed weaknesses
                  during the evaluation process. According to site
                  personnel, deficiencies that had not yet been addressed
                  have been incorporated into site-wide funding requests.

                           Use of Electricity Metering Data

         We identified opportunities for sites to improve the use of
         electricity metering data. Specifically:

              •   Although Y-12 had compiled electricity metering data,
                  the site had not used the data to implement energy
                  conservation projects. In fact, because the data had not
                  been used, Y-12 officials had not ensured its accuracy
                  and completeness. Of the 47 buildings for which Y-12
                  had compiled data, at least 7 buildings were based on
                  estimated usage, rather than actual usage, because meters
                  were nonoperational, inaccessible or not installed. In


Page 3                                                     Details of Finding
                  particular, Y-12 had compiled the same reading for a
                  meter for nearly 5 years because it was behind a locked
                  door and reportedly inaccessible. Further, for almost 5
                  years, staff reportedly recorded estimated readings for a
                  meter that had not been re-installed after being removed
                  during a construction project. In addition, Y-12 had not
                  installed the two meters that were initially identified as
                  cost-effective in a 2007 Metering Plan. In July 2011,
                  Y-12 initiated a more intensive effort to document where
                  meters were installed and whether they were operational.
                  While this project was ongoing as of January 2012, site
                  officials told us that much of Y-12's electric metering
                  infrastructure is either nonoperational or improperly
                  installed. In November 2011, Y-12 also released an
                  updated Metering Plan identifying 54 facilities that could
                  benefit from advanced electric meter installations.

              •   Los Alamos had a significant number of electricity
                  meters installed and used the metering data to generate
                  mock electricity bills to illustrate quarterly energy
                  consumption. According to site officials, "mock
                  electricity bills" created in April 2011, was one of the
                  energy conservation initiatives stemming from metering
                  that was implemented at the site. Mock electricity bills
                  illustrate quarterly energy consumption, as well as
                  changes in annual energy consumption for each of the
                  five internal divisions. The site, however, had not
                  incentivized conservation by actually charging users
                  based on their energy consumption. Accordingly,
                  officials informed us that, as of our review, mock
                  electricity bills had not resulted in any known energy
                  savings for the site.

         Certain sites we reviewed used electricity metering data to reduce
         energy consumption. For example:

              •   ORNL used system-specific metering in 2 of its 15
                  similarly constructed office buildings to determine how
                  specific systems used electricity. Through this effort,
                  ORNL reduced its energy consumption by identifying
                  and replacing outdated and inefficient equipment.
                  Monitoring electrical consumption associated with
                  lighting, plug loads and other specific end-uses also
                  allowed the site to compare the effectiveness of energy-
                  conservation measures and implement targeted projects in
                  other facilities.


Page 4                                                   Details of Finding
                         •   Brookhaven used metering data to strategically schedule
                             projects requiring significant energy use in an effort to
                             avoid the high costs incurred during peak load periods.
                             This technique reportedly allowed the site to avoid about
                             $2 million per year in electricity costs associated with
                             demand charges. Brookhaven officials reported,
                             however, that their most successful outcomes were
                             achieved through billing internal customers for their
                             actual electricity use. Although the site could not
                             quantify the total energy and cost savings attributable to
                             direct-billing, electric consumption of one tenant dropped
                             about 40 percent when billed for actual consumption.

                         •   Sandia used similar metering applications and
                             approaches. Sandia incorporated metering data into its
                             space-chargeback system to bill internal users for
                             electricity and tracked changes in energy consumption to
                             determine the effects of energy-efficiency projects. For
                             example, for one project, Sandia reported that savings
                             ranged from approximately 22 percent to 36 percent over
                             a 4-month period.
Prioritization,     Department officials told us that a number of factors contributed
Resources and       to instances of ineffective facility evaluations and electricity
Billing Practices   metering. These included a lack of prioritization in implementing
                    low- and no-cost, quick payback measures; insufficient resources
                    to complete numerous required evaluations; billing practices that
                    did not promote and encourage efficient energy use; and
                    difficulties in revising accounting systems to support billing users
                    based on energy consumption. Specifically:

                         •   Site officials told us that given the constrained budget
                             environment, it was often difficult to balance mission
                             critical needs with implementing energy conservation
                             measures. We recognize there are costs associated with
                             evaluating facilities and implementing metering projects;
                             however, we believe it is important for sites to prioritize
                             projects with rapid payback periods and little or no
                             required upfront investment. In support of our premise,
                             we noted that a study by the Federal Energy Management
                             Program on the Department's Pacific Northwest National
                             Laboratory highlighted how the site used a facility
                             evaluation checklist to identify and prioritize low- and
                             no-cost ($500 or less to complete) energy conservation
                             opportunities. According to the study, this process
                             resulted in approximately $173,700 (35 percent) in


Page 5                                                               Details of Finding
                             energy cost savings for one building at the site. Some
                             sites had been proactive in certain areas; for example,
                             Department officials reported that the National Nuclear
                             Security Administration (NNSA) had allocated over $6
                             million of Energy Modernization and Investment
                             Program (EMIP) funding to metering facilities in Fiscal
                             Year 2011, including $2 million to Y-12 and $1 million
                             to Los Alamos.

                         •   The level of resources needed to complete multiple
                             facility assessments required by the Department for
                             different purposes, including facility evaluations and
                             Condition Assessment Surveys designed to calculate
                             deferred maintenance, drained available resources and
                             thereby affected implementation of identified measures.
                             To reduce costs, certain sites had taken steps to
                             streamline the performance of separate requirements.
                             Specifically, in December 2011, Brookhaven officials
                             informed us they were combining facility evaluations and
                             Condition Assessment Surveys to decrease costs by
                             approximately $45,000 (17 percent) annually.

                         •   Rather than billing for actual electricity usage, a number
                             of sites billed users on an allocation basis such as square
                             footage. Because users are not billed for actual usage,
                             there is little financial incentive to conserve energy.
                             While officials at Y-12 and Los Alamos acknowledged
                             the value of billing for electricity usage, they noted that
                             changing billing practices can be costly. As previously
                             mentioned, Y-12 was evaluating and updating its
                             metering infrastructure, and Los Alamos noted there
                             would be difficulties revising its accounting systems to
                             support direct billing. While we recognize the underlying
                             challenges associated with updating internal billing
                             systems, we believe the Department could significantly
                             benefit from such investments over time.

Potential Savings   Effective facility evaluations and electricity metering are critical
                    for maximizing the Department's conservation efforts and
                    decreasing energy costs. We conservatively estimate the
                    Department could save approximately $6.6 million annually, using
                    the 4-year timeframe in EISA 2007, if it more proactively assesses
                    and repairs building systems through facility evaluations. In
                    addition to criteria set forth in EISA 2007, our estimate was based
                    on a 2009 Department study conducted by Lawrence Berkeley
                    National Laboratory that found 16 percent energy savings from


Page 6                                                               Details of Finding
                  ensuring existing whole-building systems are working properly. A
                  detailed description of our estimation methodology is included in
                  Appendix 1. Regarding metering, while we were not able to
                  calculate a point estimate, we noted the Department's guidance
                  provides a wide range of cost savings accruing from a site-wide
                  metering program — between 1 percent and 20 percent — specific
                  to each site.


RECOMMENDATIONS   To better harness the benefits of facility evaluations and electricity
                  metering, we recommend that the Acting Under Secretary of
                  Energy, the Under Secretary for Nuclear Security, and the Director
                  of the Office of Science require Federal Site Managers to:

                      1. Evaluate opportunities to more effectively utilize facility
                         evaluations and electricity metering to decrease energy
                         costs and improve operations of facilities;

                      2. Prioritize the most cost-effective projects identified by
                         facility evaluations and electricity metering, and
                         implement these projects in a timely manner;

                      3. Consider opportunities to streamline the performance and
                         reporting of required facility evaluations in order to
                         conserve scarce resources; and,

                      4. Implement best practices related to billing for electricity
                         usage to the maximum extent practicable.

MANAGEMENT        Management concurred with the report's recommendations.
REACTION          NNSA highlighted the progress it had made on meter
                  installations at six sites, but acknowledged that additional energy
                  and cost-saving opportunities remain. NNSA officials also
                  informed us that Y-12 used its $2 million of EMIP funds to install
                  or replace about 115 meters, and Los Alamos used metering data
                  for energy auditing and validating savings from various energy
                  conservation projects. NNSA stated that its sites would address
                  our recommendations in their annual Site Sustainability Plans. The
                  Office of the Under Secretary of Energy and the Office of Science
                  emphasized that their sites will continue to evaluate buildings on a
                  4-year, recurring cycle and implement electricity billing best
                  practices, where cost-effective, on a site specific basis.
                  Management's comments, included in Appendix 3, are generally
                  responsive to our findings and recommendations.




Page 7                                                            Recommendations
AUDITOR    We are encouraged by the Department's acknowledgement of
COMMENTS   additional opportunities for energy savings through facility
           evaluations and electricity metering as well as planned actions to
           evaluate, prioritize and implement the most cost-effective projects.
           Effective, cost-saving projects and practices being implemented
           across the Department may serve as an example for other sites'
           sustainability efforts.




Page 8                                                             Comments
APPENDIX 1

OBJECTIVE     The objective of this audit was to determine whether the
              Department of Energy (Department) had effectively identified and
              implemented energy-saving opportunities through facility
              evaluations and electricity metering.
SCOPE         The audit was performed between February 2011 and July 2012, at
              Department Headquarters in Washington, DC; Oak Ridge National
              Laboratory and Y-12 National Security Complex in Oak Ridge,
              TN; Brookhaven National Laboratory in Upton, NY; Los Alamos
              National Laboratory in Los Alamos, NM; and Sandia National
              Laboratory in Albuquerque, NM.
METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed laws, regulations, Department Orders and
                       guidance applicable to facility evaluations and electricity
                       metering;

                   •   Reviewed sustainability plans and metering plans for
                       each site;

                   •   Interviewed key personnel at Department Headquarters
                       and each of the sites;

                   •   Analyzed energy conservation measures identified in
                       facility evaluations and determined whether certain low-
                       and no-cost, quick payback measures were implemented;

                   •   Discussed and reviewed energy and cost saving projects
                       that were identified using electric metering data;

                   •   Observed a sample of installed meters at each site and
                       reviewed electric metering data compiled by site energy
                       managers; and,

                  •    Assessed how sites distributed electricity costs to internal
                       users and whether metering data was incorporated into
                       this process.
              We conservatively estimated that the Department could annually
              save approximately $6.6 million, by applying a 16 percent energy
              savings estimate from ensuring building systems operate properly
              that was developed by Lawrence Berkeley National Laboratory, to
              about $42 million in annual building energy costs. We derived the
              $42 million annual building energy costs based on the
              Department's Fiscal Year 2010 building energy costs of about $277
              million reduced by: (a) 25 percent to recognize that Energy


Page 9                                     Objective, Scope and Methodology
APPENDIX 1 (continued)

                         Independence and Security Act of 2007 (EISA 2007) requirements
                         apply to only 75 percent of total energy use; (b) 75 percent to
                         recognize that EISA 2007 requires evaluations on a 4-year cycle;
                         and, (c) 20 percent to recognize that 1 of the 5 sites included in our
                         review identified and implemented energy-saving opportunities by
                         making improvements discovered during its facility evaluations
                         required under EISA 2007.
                         We conducted this performance audit in accordance with generally
                         accepted Government auditing standards. Those standards require
                         that we plan and perform the audit to obtain sufficient, appropriate
                         evidence to provide a reasonable basis for our findings and
                         conclusions based on our audit objectives. We believe the
                         evidence obtained provides a reasonable basis for our findings and
                         conclusions based on our audit objective. Accordingly, we
                         assessed significant internal controls and compliance with laws and
                         regulations to the extent necessary to satisfy the audit objective. In
                         particular, we assessed the Department's implementation of the
                         GPRA Modernization Act of 2010 and determined that it had not
                         established performance measures for facility evaluations and
                         electricity metering at the sites reviewed. Because our review was
                         limited, it would not necessarily have disclosed all internal control
                         deficiencies that may have existed at the time of our audit. Finally,
                         we conducted an assessment of computer-processed data relevant
                         to our audit objective and found it to be reliable.
                         Management waived the exit conference.




Page 10                                                Objective, Scope and Methodology
APPENDIX 2


                                     PRIOR REPORTS

  •   Audit Report on The Department of Energy's Energy Conservation Efforts (OAS-L-11-02,
      February 2011). The audit revealed that the Department of Energy's (Department)
      approach was not sufficient to achieve the Energy Independence and Security Act of 2007
      (EISA 2007) imposed energy conservation requirement to reduce energy consumption by
      30 percent by Fiscal Year 2015. Although funding for energy conservation projects must
      compete with mission needs and increasingly scarce Federal resources, we noted in the
      past that the Department lacked a systematic approach to funding energy conservation
      measures. The Department's Strategic Sustainability Performance Plan, if fully
      implemented, should advance the resolution of issues identified in the report and help the
      Department meet energy mandates from EISA 2007.

  •   Audit Report on The Department of Energy's Opportunity for Energy Savings Through
      Improved Management of Facility Lighting (DOE/IG-0835, June 2010). The audit
      revealed that the Department had not always used efficient lighting and control systems to
      conserve energy and save taxpayer dollars. More specifically, the Department had not
      utilized, to the maximum extent practical, lighting technologies whose research and
      development it funded. Had the Department capitalized on efficient lighting and lighting
      system technologies, over $2.2 million in electric utility operating costs could have been
      saved annually.

  •   Audit Report on The Department of Energy's Opportunity for Energy Savings Through the
      Use of Setbacks in its Facilities (DOE/IG-0817, July 2009). The audit revealed that the
      Department had not always used or properly maintained heating, ventilation and air-
      conditioning temperature setback controls in its facilities. For the four sites reviewed,
      setbacks were not utilized in 64 percent of evaluated buildings. By more actively
      employing setbacks in its facilities, we estimated that the Department could save over
      $11.5 million in annual utility costs.

  •   Audit Report on Department of Energy Efforts to Manage Information Technology
      Resources in an Energy-Efficient and Environmentally Responsible Manner (OAS-RA-
      09-03, May 2009). The audit revealed that the Department had not taken steps to ensure
      its information technology resources were managed in an energy-efficient manner. For
      the seven sites reviewed, power management settings, "thin-client" computing, and data
      center energy reduction opportunities were not always implemented. Nearly all of the
      computers reviewed did not have the hibernation, energy-saving mode enabled, and five
      of the data centers reviewed did not monitor energy consumption and could, therefore, not
      justify implementing more energy-efficient technologies.




Page 11                                                                          Prior Reports
APPENDIX 3

             MANAGEMENT COMMENTS




Page 12                            Management Comments
APPENDIX 3 (continued)




Page 13                  Management Comments
APPENDIX 3 (continued)




Page 14                  Management Comments
APPENDIX 3 (continued)




Page 15                  Management Comments
APPENDIX 3 (continued)




Page 16                  Management Comments
APPENDIX 3 (continued)




Page 17                  Management Comments
APPENDIX 3 (continued)




Page 18                  Management Comments
                                                                    IG Report No. DOE/IG-0869

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit or inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig


      Your comments would be appreciated and can be provided on the Customer Response Form.
